OIG Special Report
A Review of the FBI's Handling of the Brandon Mayfield Case
(Unclassified and Redacted)
Special Report
March 2006
Office of the Inspector General
List of PDF Files
Full Report - (106MB)
Executive Summary (9MB)
Chapter 1 - Report Cover, Table of Contents and Introduction (1MB)
Chapter 2 -  Chronology of Events Related to the Mayfield Case (6MB)
Chapter 3 -  Background for the OIG's Analysis of Fingerprint Issues Raised by the Mayfield Case (2MB)
Chapter 4 - OIG's Assessment of the Causes of the Fingerprint Misidentification (15MB)
Chapter 5 - OIG's Assessment of the FBI Laboratory's Responses to the Fingerprint Misidentification  (2MB)
Chapter 6 - OIG's Analysis of the Investigation, Arrest, and Confinement of Mayfield (4MB)
Chapter 7 - Conclusion and Appendices (16MB)